                 The Internal Revenue Service Is Making
               Progress in Addressing Compliance Among
                Small Businesses Engaged in Electronic
                               Commerce

                                  November 2004

                       Reference Number: 2005-30-010




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    November 26, 2004



      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION


      FROM:                          Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

      SUBJECT:                       Final Audit Report – The Internal Revenue Service Is Making
                                     Progress in Addressing Compliance Among Small Businesses
                                     Engaged in Electronic Commerce (Audit # 200330036)


      This report presents the results of our review of small businesses engaged in electronic
      commerce. Electronic commerce is the sale or exchange of goods or services over the
      Internet. The overall objective of this review was to evaluate the Small Business/Self-
      Employed (SB/SE) Division’s approach in addressing reporting compliance among
      small businesses that are doing business over the Internet.
      In summary, in March 2004, the SB/SE Division estimated that the tax gap1 among
      small businesses that are doing business over the Internet may be as high as $1 billion.
      The SB/SE Division also noted in a March 2004 report2 that global electronic commerce
      is projected to increase to $12.8 trillion by 2006, from its current level of $1.2 trillion. To
      address this gap, the SB/SE Division has taken a number of proactive steps to provide
      education and outreach and has developed plans to begin a detailed evaluation of
      electronic commerce reporting compliance beginning in 2005.
      Specifically, the SB/SE Division has established general tax information sharing
      partnerships with Internet-related trade associations and Internet service providers. The
      SB/SE Division also implemented a focused outreach effort designed to improve the




      1
       The gross tax gap is defined as the amount of tax liability for a given year that is not paid voluntarily and timely.
      2
       Electronic Business Compliance: A Report on the Impact of E-Business on SB/SE Compliance and the Status of
      E-Business Compliance Activities, SB/SE Reporting Compliance, E-Business, (Whitepaper), March 22, 2004
                                                          2

reporting compliance of online bartering exchanges3 that did not file Proceeds From
Broker and Barter Exchange Transactions (Form 1099-B).
Gathering reliable compliance information on small businesses engaged in electronic
commerce presents a significant challenge for the Internal Revenue Service (IRS). It is
presently impossible to identify income attributable to electronic commerce activity from the
information maintained in the IRS databases or from a review of the information on filed tax
returns. Similarly, information presently collected regarding examination-related
adjustments does not contain sufficient specificity to isolate electronic commerce activity.
As a result, the only reliable method of gathering compliance trend information regarding
small businesses engaged in electronic commerce is through the examination of selected
taxpayers.
The SB/SE Division’s progress in gathering compliance measurement and trend
information regarding small businesses engaged in electronic commerce has generally
been slow. However, the SB/SE Division has developed preliminary plans to perform a
detailed evaluation of electronic commerce compliance beginning in 2005. This effort
will involve approximately 1,800 examinations to be performed in Fiscal Years 2005
through 2007 via a series of Compliance Improvement Projects (CIP)4 focusing on small
businesses engaged in electronic commerce. This approach, if implemented as
planned, should provide the SB/SE Division with significant data regarding small
business taxpayer compliance levels. The SB/SE Division is also working with the
National Research Program (NRP) project office in an effort to ensure detailed
information is gathered regarding electronic commerce-related compliance during the
upcoming evaluation of partnerships and small corporations.
While the SB/SE Division has made progress in preparing for the approximately
1,800 examinations to be performed in Fiscal Years 2005 through 2007, additional
planning would help ensure the uniformity of the data gathered and improve the overall
efficiency of this effort. For example, although each market segment CIP is supported
by its own detailed activity plan, an overall methodology for accumulating and analyzing
all of the information gathered during the examinations has not been developed.
We recommended the Director, Examination, SB/SE Division, continue with current
plans to use CIPs to collect detailed compliance data on small businesses that are
doing business over the Internet. The Director, Examination, SB/SE Division, should
also consider the feasibility of gathering electronic commerce compliance data using
general examination program examinations. Additionally, the Director, Examination,
SB/SE Division, should develop an overall methodology for accumulating and analyzing
all of the information gathered during the planned CIPs. Finally, the Director,
Examination, SB/SE Division, should continue to coordinate with the NRP project office
to ensure electronic commerce-related information is gathered during the upcoming


3
  An Internet bartering exchange facilitates the exchange of one good or service for another and earns a profit by
charging a fee on each transaction.
4
  A CIP is any activity involving contact with specific taxpayers within a group to identify potential areas of
noncompliance.
                                                       3

evaluation of partnerships and small corporations. Due to limited resources, in the past
the IRS has not fully addressed initiatives that are not one of its seven priority area
issues.5 Electronic commerce is not one of the priority areas; however, it is important
that this initiative be completed due to the volume of potential noncompliance and
increased use of electronic commerce activity.
Management’s Response: IRS management agreed with the recommendations
presented in our report and indicated it has already begun implementing corrective
actions. Specifically, management will continue to acquire data and develop
measurements on Electronic Business (E-Business) Compliance issues through CIPs
and other techniques as outlined in the E-Business Compliance Strategy. Management
is also currently reviewing options for the gathering of electronic commerce income
adjustment information as part of general examination program examinations.
Additionally, management is developing a database for the storage of acquired
information, along with a standardization of data gathering sources for individual CIPs.
Finally, management is currently coordinating with the NRP project office to determine
the extent of information to be gathered during the upcoming evaluation of partnerships
and small corporations. Management’s complete response to the draft report is
included as Appendix IV.
Copies of this report are also being sent to IRS officials who are affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.




5
  In July 2002, the IRS Commissioner presented seven new compliance priority examination areas as a
priority-based approach for the assignment of new income tax examination workload.
        The Internal Revenue Service Is Making Progress in Addressing Compliance
                Among Small Businesses Engaged in Electronic Commerce




                                                Table of Contents


Background ............................................................................................... Page 1
A Number of Proactive Steps Have Been Taken to Provide
Education and Outreach to Small Businesses Engaged in
Electronic Commerce ................................................................................ Page 2
Preliminary Plans Provide for a Detailed Evaluation of Electronic
Commerce Compliance Beginning in 2005 ............................................... Page 3
         Recommendations 1 and 2: .............................................................Page 5
         Recommendations 3 and 4: .............................................................Page 6

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 7
Appendix II – Major Contributors to This Report ....................................... Page 8
Appendix III – Report Distribution List ....................................................... Page 9
Appendix IV – Management’s Response to the Draft Report .................... Page 10
      The Internal Revenue Service Is Making Progress in Addressing Compliance
              Among Small Businesses Engaged in Electronic Commerce

                                Electronic commerce is the sale or exchange of goods or
Background
                                services over the Internet. Global electronic commerce is
                                projected to increase to $12.8 trillion by 2006, from its
                                current level of $1.2 trillion. This is equivalent to about
                                18 percent of the world’s gross domestic product. In 2001,
                                the United States accounted for approximately 71 percent of
                                total electronic commerce sales.1
                                In October 2000, the Internal Revenue Service (IRS)
                                completed a research study that analyzed the tax compliance
                                risks associated with electronic commerce.2 The study
                                indicated an income tax gap3 of $6.2 million in 1997 for the
                                426 commercial web sites selected. Most of the tax gap
                                identified was due to the understatement of taxable income.
                                In addition, 10 percent of the selected commercial web site
                                owners failed to file their 1997 tax returns and 12 percent
                                could not be identified, so their filing status is unknown.
                                The study included retail and wholesale businesses,
                                financial services, business services, Internet service
                                providers, computer sales/services businesses, and adult
                                entertainment businesses. In March 2004, the Small
                                Business/Self-Employed (SB/SE) Division estimated that
                                the total tax gap among small businesses that are doing
                                business over the Internet may be as high $1 billion.

                                To help focus and coordinate its compliance efforts
                                regarding small businesses engaged in electronic commerce,
                                in October 2000, the SB/SE Division established a small
                                electronic commerce compliance team within the
                                Compliance Policy function. This team was realigned as a
                                separate unit within the Reporting Enforcement area in
                                October 2003. Similarly, an Electronic Business
                                (E-Business) unit was established within the SB/SE
                                Division Taxpayer Education and Communication



                                1
                                  Electronic Business Compliance: A Report on the Impact of
                                E-Business on SB/SE Compliance and the Status of E-Business
                                Compliance Activities, SB/SE Reporting Compliance, E-Business,
                                (Whitepaper), March 22, 2004.
                                2
                                  Electronic Commerce: Challenges and Opportunities, Research and
                                Analysis Division, Upstate New York District, October 2000.
                                3
                                  The gross tax gap is defined as the amount of tax liability for a given
                                year that is not paid voluntarily and timely.
                                                                                                   Page 1
       The Internal Revenue Service Is Making Progress in Addressing Compliance
               Among Small Businesses Engaged in Electronic Commerce

                                 organization in June 2002 to focus education and outreach
                                 efforts on small businesses engaged in electronic commerce.
                                 This review was performed at the SB/SE Division
                                 Headquarters in New Carrollton, Maryland, and at the
                                 Reporting Compliance E-Business unit in Dallas, Texas,
                                 during the period August 2003 through June 2004. The
                                 audit was conducted in accordance with Government
                                 Auditing Standards. Detailed information on our audit
                                 objective, scope, and methodology is presented in
                                 Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 The SB/SE Division has established tax information sharing
A Number of Proactive Steps
                                 partnerships with numerous web site owners, Internet-related
Have Been Taken to Provide
                                 trade associations, and Internet service providers. These
Education and Outreach to
                                 partnerships have a number of benefits, including increasing
Small Businesses Engaged in
                                 ways by which the IRS can provide tax law information to
Electronic Commerce
                                 small business taxpayers. In addition, the SB/SE Division
                                 established a web site in March 2003 dedicated to providing tax
                                 law information and assistance to small businesses engaged in
                                 electronic commerce.
                                 The SB/SE Division also implemented a focused outreach
                                 effort designed to improve the reporting compliance of
                                 online bartering exchanges.4 This outreach was performed
                                 in coordination with a Compliance Improvement Project
                                 (CIP),5 which identified that 758 of the 1,695 bartering
                                 exchanges sampled did not file Proceeds From Broker and
                                 Barter Exchange Transactions (Form 1099-B) in 2002.6
                                 Bartering exchanges are required to annually file a
                                 Form 1099-B on bartering transactions and to collect the
                                 exchange member’s Taxpayer Identification Number.
                                 In October 2003, informational letters concerning
                                 Form 1099-B filing requirements were sent to bartering
                                 exchanges that did not file Forms 1099-B. A follow-up


                                 4
                                   An Internet bartering exchange facilitates the exchange of one good or
                                 service for another and earns a profit by charging a fee on each
                                 transaction.
                                 5
                                   A CIP is any activity involving contact with specific taxpayers within a
                                 group to identify potential areas of noncompliance.
                                 6
                                   Compliance Improvement Project: Internet Bartering Exchanges,
                                 approved April 17, 2003.
                                                                                                  Page 2
         The Internal Revenue Service Is Making Progress in Addressing Compliance
                 Among Small Businesses Engaged in Electronic Commerce

                                    analysis is presently in progress to determine what
                                    percentage of the exchanges that received the letters
                                    complied and filed Form 1099-B in 2004 for Tax
                                    Year 2003. General tax information regarding filing
                                    requirements was also placed on the IRS web site (IRS.gov)
                                    and a bartering association web site.
                                    Gathering information on compliance among small
Preliminary Plans Provide for a
                                    businesses engaged in electronic commerce presents a
Detailed Evaluation of Electronic
                                    significant challenge for the IRS. It is presently impossible
Commerce Compliance Beginning
                                    to identify income attributable to electronic commerce
in 2005
                                    activity from the information maintained in the IRS
                                    databases or from a review of the information on filed tax
                                    returns. Similarly, when tax returns are examined by the
                                    IRS, information is not collected to specifically identify and
                                    isolate electronic commerce activity. Gathering these types
                                    of data would require revising existing examination
                                    procedures and adding additional elements to the data
                                    collected regarding examination adjustments. The only
                                    reliable method of gathering compliance trend information
                                    regarding small businesses engaged in electronic commerce
                                    is through the examination of selected taxpayers.
                                    Overall, the SB/SE Division’s progress in gathering detailed
                                    measurement and trend information regarding small
                                    businesses engaged in electronic commerce compliance has
                                    been slow. Although the study of 1997 tax returns indicated
                                    there was noncompliance among businesses engaged in
                                    electronic commerce, the only tax compliance data
                                    subsequently gathered by the SB/SE Division regarding
                                    electronic commerce was obtained from the narrowly
                                    focused review on Internet bartering exchanges initiated in
                                    2003. Management informed us that a number of other
                                    efforts to gather additional data through the examination of
                                    small businesses engaged in electronic commerce were
                                    previously rejected because they were not directly related to
                                    an examination priority area.7




                                    7
                                     In July 2002, the IRS Commissioner presented seven new compliance
                                    priority examination areas as a priority-based approach for the
                                    assignment of new income tax examination workload.

                                                                                                Page 3
The Internal Revenue Service Is Making Progress in Addressing Compliance
        Among Small Businesses Engaged in Electronic Commerce

                          Although progress has been slow in addressing electronic
                          commerce compliance, the SB/SE Division has developed
                          preliminary plans to perform a detailed evaluation beginning
                          in 2005. This effort will involve approximately
                          1,800 examinations to be performed in Fiscal Years 2005
                          through 2007 and will be comprised of a series of CIPs
                          focusing on small businesses engaged in electronic
                          commerce. Approximately 650 of the 1,800 examinations
                          are planned to begin in 2005. The CIPs will each focus on a
                          different market segment related to small businesses
                          engaged in electronic commerce. The overall purpose of
                          these projects will be to identify the level of tax compliance
                          for each market segment and identify solutions to improve
                          compliance levels and address compliance issues, as
                          necessary.
                          This approach, if implemented as planned, should provide
                          the SB/SE Division with significant data regarding small
                          business taxpayer compliance levels. Gathering these types
                          of data is essential to the evaluation of compliance trends,
                          development of new compliance approaches, and
                          identification of areas in which taxpayer education and
                          outreach need to be enhanced. In addition, the ongoing
                          collection and analysis of data is essential for effective
                          decision making and is a critical component of program
                          management.
                          While the SB/SE Division has made progress in preparing
                          for this effort, additional planning would help ensure the
                          uniformity of the data gathered and improve overall
                          efficiency. For example, although each market segment CIP
                          is supported by its own detailed activity plan, an overall
                          methodology for accumulating and analyzing all of the
                          information gathered during the examinations has not been
                          developed. Development of a single overall methodology
                          for data accumulation and analysis would help ensure data
                          uniformity, improve comparability of results, and enhance
                          the overall efficiency of this effort.
                          The SB/SE Division is also in the process of working with
                          the National Research Program (NRP) project office in an
                          effort to ensure detailed information is gathered regarding
                          electronic commerce-related compliance during the
                          upcoming evaluation of partnerships and small corporations.

                                                                                 Page 4
The Internal Revenue Service Is Making Progress in Addressing Compliance
        Among Small Businesses Engaged in Electronic Commerce

                          Information gathering proposed by the SB/SE Division
                          includes the amounts of adjustments for income and
                          expenses related to business-to-business and
                          business-to-consumer sales made using the Internet and
                          other web site income.

                          Recommendations

                          The Director, Examination, SB/SE Division, should:
                          1. Continue with current plans to collect compliance data
                             using a series of CIPs focusing on small businesses
                             engaged in electronic commerce. Due to limited
                             resources, the IRS has not fully addressed initiatives that
                             are not one of its seven priority area issues. Electronic
                             commerce is not one of the priority areas; however, it is
                             important that this initiative be completed due to the
                             volume of potential noncompliance and increased use of
                             electronic commerce activity.
                          Management’s Response: The current Electronic Business
                          (E-Business) Compliance Strategy includes steps to
                          continue to acquire data and develop measurements on
                          electronic commerce markets and E-Business Compliance
                          issues. Project, tracking, and aging codes are being
                          implemented on examination cases to capture the results.
                          The CIPs are designed to provide compliance data on
                          selected markets.
                          2. Evaluate the feasibility of developing a methodology to
                             gather electronic commerce-related income adjustment
                             information as part of general examination program
                             examinations.
                          Management’s Response: The SB/SE Division
                          Examination area is currently reviewing options to gather
                          this information. The nature of electronic commerce
                          income and expenses is that it is merged with general
                          income and expenses by established firms that enter into the
                          electronic commerce market place. There are relatively few
                          pure electronic commerce businesses in existence. The
                          merger of income and expenses makes it cumbersome and
                          resource expensive to gather electronic commerce
                          information from examinations initiated under other priority
                          examination efforts.
                                                                                 Page 5
The Internal Revenue Service Is Making Progress in Addressing Compliance
        Among Small Businesses Engaged in Electronic Commerce

                          3. Develop an overall methodology for accumulating and
                             analyzing all of the information gathered during the
                             planned examinations with an emphasis on ensuring
                             data uniformity and comparability.
                          Management’s Response: A database for acquired
                          information is in the process of being developed. Data
                          gathering sources are being standardized for the individual
                          CIPs.
                          4. Continue to coordinate with the NRP project office to
                             ensure detailed information is gathered regarding
                             electronic commerce-related compliance during the
                             upcoming evaluation of partnerships and small
                             corporations.
                          Management’s Response: Management is currently
                          coordinating with the NRP project office to determine what
                          levels of questions are practical and acceptable.




                                                                                Page 6
       The Internal Revenue Service Is Making Progress in Addressing Compliance
               Among Small Businesses Engaged in Electronic Commerce

                                                                                     Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the Small Business/Self-Employed (SB/SE)
Division’s approach in addressing reporting compliance among small businesses that are doing
business over the Internet. In accomplishing this review, we relied on information accumulated
by the Internal Revenue Service in established reports and did not perform any specific testing to
verify its accuracy. To accomplish our objective, we:
I.     Determined whether the SB/SE Division had taken effective steps to develop a measure
       of reporting compliance among small businesses that are doing business over the Internet.
       A. Interviewed SB/SE Division personnel and evaluated steps taken/planned to develop
          an overall measure of electronic commerce reporting compliance.
       B. Evaluated plans to include steps in the next phase of the National Research Program
          (Phase II – Partnerships and Small Corporations) regarding electronic commerce
          reporting compliance.
II.    Ascertained whether the electronic commerce strategy was consistent with the
       compliance trends identified in data gathered by the SB/SE Division’s Research and
       Analysis function.
III.   Determined whether key action items related to the development of electronic business
       taxpayer education were reasonable and supported by measurable milestones.
IV.    Determined whether the SB/SE Division was providing effective oversight to ensure the
       successful implementation of an electronic commerce strategy.
       A. Reviewed the methodology (e.g., periodic conference calls, status reports, or other
          similar means) used to monitor the progress of key action items.
       B. Evaluated steps taken to address any delays/difficulties identified in implementing
          key action items.




                                                                                          Page 7
      The Internal Revenue Service Is Making Progress in Addressing Compliance
              Among Small Businesses Engaged in Electronic Commerce

                                                                                 Appendix II


                           Major Contributors to This Report

Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Philip Shropshire, Director
Anthony J. Choma, Audit Manager
Philip Smith, Lead Auditor
Cristina Johnson, Auditor
Rashme Sawhney, Auditor




                                                                                       Page 8
      The Internal Revenue Service Is Making Progress in Addressing Compliance
              Among Small Businesses Engaged in Electronic Commerce

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:CL
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Taxpayer Education and Communication, Small Business/Self-Employed Division
SE:S:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 9
The Internal Revenue Service Is Making Progress in Addressing Compliance
        Among Small Businesses Engaged in Electronic Commerce

                                                                  Appendix IV


             Management’s Response to the Draft Report




                                                                           Page 10
The Internal Revenue Service Is Making Progress in Addressing Compliance
        Among Small Businesses Engaged in Electronic Commerce




                                                                           Page 11
The Internal Revenue Service Is Making Progress in Addressing Compliance
        Among Small Businesses Engaged in Electronic Commerce




                                                                           Page 12
The Internal Revenue Service Is Making Progress in Addressing Compliance
        Among Small Businesses Engaged in Electronic Commerce




                                                                           Page 13
